Case: 20-3686

Document: 18-2

Filed: 01/28/2021

Page: 1

Case No. 20-3686
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
CARLINE M. CURRY
Plaintiff - Appellant
v.

DONALD J. TRUMP, et al
Defendants - Appellees

Appellant having previously been advised that failure to satisfy certain specified
obligations would result in dismissal of the case for want of prosecution and it appearing that the
appellant has failed to satisfy the following obligation(s):
The proper fee was not paid by 01/19/2021.
It is therefore ORDERED that this cause be, and it hereby is, dismissed for want of
prosecution.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: January 28, 2021

(2 of 2)

Case: 20-3686

Document: 18-1

Filed: 01/28/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www. ca6 .uscourts .gov

Filed: January 28, 2021
Ms. Carline M. Curry
606 Bowman Street
Mansfield, OH 44903-0000
Re: Case No. 20-3686, Carline Curry v. Donald Trump, et al
Originating Case No. : l:19-cv-02984
Dear Ms. Curry,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Briston S. Mitchell
Case Manager
Direct Dial No. 513-564-7082
cc: Ms. Sandy Opacich
Enclosure
Mandate to issue

(1 of 2)

Case: l:19-cv-02984-PAB Doc#: 3 Filed: 04/22/20 l ot4. PagelD#:303

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
Case No. 1: 19 CV 2984

CARLINE CURRY,
Plaintiff,

JUDGE PAMELA A. BARKER

-vs-

MEMORANDUM OF OPINION AND
ORDER

DONALD TRUMP, et al.,
Defendants.

Background
Pro se Plaintiff Carline Curry has filed an in forma pauperis civil complaint in this case
against numerous public officials, including President Donald Trump, Vice President Mike Pence,
Speaker of the House of Representatives Nancy Pelosi, United States Senator Sherrod Brown, the
Justices of the United States Supreme Court, Ohio Governor Mike DeWine, Mansfield Mayor
Theaker, as well as multiple Ohio state judges and others. (Doc. No. 1.) Her 21-page Complaint
does not set forth cogent factual allegations or legal claims. It appears she contends the Defendants
have violated her rights in connection with her efforts to obtain a default judgment in an unsuccessful
action she filed in state court pertaining to her past employment with the City of Mansfield. (See id.
at 3.) The relief she seeks is for the “the Court and Senate and Congress to overturn the Decision
(Act of Congress) and award plaintiff Curry Prayer of Relief of 31,160,000 Thirty One Million One
Hundred and Sixty Thousand Dollars.” (Id. at 21.)
Standard of Review and Discussion

Case: l:19-cv-02984-PAB Doc#: 3 Filed: 04/22/20 2 of 4. PagelD#:304

Although pro se pleadings generally are liberally construed and held to less stringent
standards than formal pleadings drafted by lawyers, Williams v. Curtin, 631 F.3d 380, 383 (6th Cir.
2011), pro se plaintiffs must still meet basic pleading requirements, and courts are not required to
conjure allegations or construct legal claims on their behalf. See Erwin v. Edwards, 22 F. App’x 579,
580 (6th Cir. 2001). Moreover, federal courts are courts of limited jurisdiction and have a duty to
police the boundaries of their jurisdiction. See Fed. R. Civ. P. 12(h)(3). “A district court may, at any
time, sua sponte dismiss a complaint for lack of subject matter jurisdiction pursuant to Rule 12(b)(1)
of the Federal Rules of Civil Procedure when the allegations of [the] complaint are totally
implausible, attenuated, unsubstantial, frivolous, devoid of merit, or no longer open to discussion.”
Apple v. Glenn, 183 F.3d All, 479 (6th Cir. 1999).
The Court finds that the plaintiffs Complaint must be dismissed in accordance with Apple v.
Glenn. The Complaint is so incoherent, implausible, devoid of merit, and frivolous that it does not
provide a basis to establish this Court’s subject-matter jurisdiction over any claim against any
Defendant in the case.
Additionally, “federal courts have the inherent power to . . . [restrict] future access to the
judicial system, to deter future frivolous... or duplicative lawsuits.” Lawrence v. Bevin, No. 1:16CVP161-GNS, 2017 WL 1103616, at *3 (W.D. Ky. Mar. 24, 2017) (citing Chambers v. Nasco, Inc., 501
U.S. 32j 43—45 (1991); Futernick v. Sumpter Twp., 207 F.3d 305, 314 (6th Cir. 2000); Filipas v.
Lemons, 835 F.2d 1145, 1146 (6th Cir. 1987)). This inherent power includes denying the privilege
of proceeding in forma pauperis when a litigant abuses the privilege by repeatedly filing meritless
lawsuits. See In re McDonald, 489 U.S. 180, 184-85 (1989); Maxberry v. S.E.C., 879 F.2d 222, 224

2

Case: l:19-cv-02984-PAB Doc #: 3 Filed: 04/22/20 3 of 4. PagelD #: 305

(6th Cir. 1989); Weber v. Louisville Metro Police Dep’t, No. 3:16-CV-779-DJH, 2017 WL 1293019,
at *2 (W.D. Ky. Apr. 5, 2017).
The Plaintiff has already filed multiple pro se actions in this District pertaining to her
employment with the City of Mansfield, which have been dismissed. See, e.g. Curry v. City of
Mansfield, et al., Case No. 1: 14 CV 177 (N.D. Ohio); Curry v. City ofMansfield, et al., Case No. 1:
12 CV 2887 (N.D. Ohio); Curry v. City ofMansfield, et al., 1: 12 CV 276 (N.D. Ohio); Curry v. City
of Mansfield, et al., Case No. 1: 10 CV 1743 (N.D. Ohio); Curry v. City of Mansfield, et al., 09 CV
287 (N.D. Ohio); Curry v. City of Mansfield, et al., 05 CV 2094 (N.D. Ohio).
This Court now concludes that continuing to allow the Plaintiff to proceed in forma pauperis
with lawsuits regarding her employment with the City of Mansfield does not promote the use of Court
resources in the interest of justice. See Maxberry, 879 F.2d at 224. Accordingly, in the future, the
Plaintiff will not be permitted to file another action pertaining to her employment with the City of
Mansfield without payment of the full filing fee. See Profit v. City of Shaker Heights, No. 1:18 CV
1223, 2019 WL 315092, at *7 (N.D. Ohio Jan. 23,2019) (after filing two meritless lawsuits regarding
a February 23, 2017 traffic stop,pro se plaintiff is prohibited from filing another action regarding this
incident without payment of the full filing fee).
Conclusion
In accordance with the foregoing, the Plaintiffs Complaint in this case is dismissed pursuant
to the Court’s authority established in Apple v. Glenn. In light of this dismissal, the Plaintiff s motion
to proceed in forma pauperis (Doc. No. 2) is denied as moot.
The Plaintiff will not be permitted to file another action regarding her employment with the
City of Mansfield without payment of the full filing fee.
3

Case: l:19-cv-02984-PAB Doc#: 3 Filed: 04/22/20 4 of 4. PagelD#:306

The Court further certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from this
decision could not be taken in good faith.
IT IS SO ORDERED.

S/Pamela A. Barker
PAMELA A. BARKER
U. S. DISTRICT JUDGE

Date: April 22, 2020

4

Additional material
from this filing is
available in the
Clerk's Office.

